C'OCKLE

i E-Mail Address:
Le ga l B mae fs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-793

 

2311 Douglas Street
Omaha, Nebraska 68102-1214

INSTITUTE FOR FREE SPEECH,
Petitioner,
Vv.
XAVIER BECERRA,
Attorney General of the State of California,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF PROJECT FOR PRIVACY & SURVEILLANCE
ACCOUNTABILITY AND PACIFIC RESEARCH INSTITUTE AS AMICI CURIAE IN SUPPORT OF PETITIONER in the

above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

C. DEAN MCGRATH, JR. ERIK S. JAFFE
MCGRATH & ASSOCIATES (Counsel of Record)
1025 Thomas Jefferson GENE C. SCHAERR
Street, NW, Suite 110G JOSHUA J. PRINCE
Washington, DC 20007 SCHAERR|JAFFE LLP
(202) 295-2304 1717K Street, NW, Suite 900
cdm7578@yahoo.com Washington, DC 20006

, (202) 787-1060

ejaffe@schaerr-jaffecom

Counsel for Amici Curiae

Subscribed and sworn to before me this 2nd day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ape Tovanv.Siate of obraska Quadrau h- Chk,
RENEE J. GOSS . ‘.
My Comm. Exp. September 5, 2023. :

Affiant 39503

          

Notary Public
SERVICE LIST

Attorney for Petitioner:

Allen Joseph Dickerson
Institute for Free Speech
124 S. West Street

Suite 201

Alexandria, VA 22314
adickerson@ifs.org
703-894-6846

Attorney for Respondent:

Aimee Athena Feinberg
California Department of Justice
1300 I Street

Sacramento, CA 95814
Aimee.Feinberg@doj.ca.gov
916-210-6003
